   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




November 30, 2010

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Broward County Community
               Action Agency (A-04-10-01082)


The attached final report provides the results of our limited scope review at Broward County
Community Action Agency. In accordance with the Recovery Act, the Office of Inspector
General (OIG) will provide oversight of covered funds to prevent fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-10-01082 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT BROWARD COUNTY
COMMUNITY ACTION AGENCY




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-04-10-01082
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

The Florida Department of Community Affairs (FLDCA) acts as the lead agency to carrying out
State activities for the CSBG program. The FLDCA is responsible for approving the State’s
CAA Recovery Act grant applications and monitoring the CAAs for compliance with program
regulations. FLDCA was awarded an additional $29,060,460 in Recovery Act funds for the
State of Florida’s CSBG program.

The Broward County Community Action Agency (the Agency) provides assistance to low-
income residents of Broward County, Florida, through the federally funded CSBG,
CSBG/Recovery Act, and Low Income Home Energy Assistance Programs. During fiscal year
2009, FLDCA awarded the Agency $1,222,517 in CSBG grant funds and a Recovery Act grant
award totaling $2,006,347. For fiscal year 2009, Broward County, as a whole, received total
Federal grant awards of $84,251,000.

OBJECTIVE

The objective of our limited-scope review was to assess the Agency’s financial viability,
capacity to manage and account for Federal funds, and capability to operate the CSBG program
in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, the Agency was financially viable. In addition, the Agency had the
capacity to manage and account for Federal funds and the capability to operate the CSBG
program in accordance with Federal regulations. However, the Agency had weaknesses with its
time and effort certification and labor distribution systems. Also, the Agency had problems fully
expending the CSBG/Recovery Act funds.



                                                i
RECOMMENDATION

In determining whether the Agency is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing the Agency’s ability to operate a CSBG program in accordance with Federal
regulations.

AGENCY COMMENTS

In written comments on our draft report, the Agency described actions it had taken in response to
our finding on time and effort certification and labor distribution weaknesses. Additionally, the
Agency indicated that all funds allocated to it under the CSBG ARRA program had been fully
expended by the close of the grant period. The Agency also stated that preliminary results
showed 68 individuals obtained employment and 21 individuals obtained an increase in
employment and/or benefits under the program.

The complete text of the Agency’s comments is included as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS



INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Community Services Block Grant Program ...................................................... 1
              Florida Department of Community Affairs ....................................................... 1
              Broward County Community Action Agency ................................................... 1
              Requirements for Federal Grantees ................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 2

FINDINGS AND RECOMMENDATION............................................................................. 3

          TIME AND EFFORT CERTIFICATION AND LABOR DISTRIBUTION
           SYSTEM WEAKNESSES ......................................................................................... 3

          INABILITY TO FULLY EXPEND FUNDS ................................................................ 4

          RECOMMENDATION ................................................................................................. 4

          AGENCY COMMENTS ............................................................................................... 5

APPENDIX

          AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Florida Department of Community Affairs

The Florida Department of Community Affairs (FLDCA) acts as the lead agency to carrying out
State activities for the CSBG program. The FLDCA is responsible for approving the State’s
CAA Recovery Act grant applications and monitoring the CAAs for compliance with program
regulations. FLDCA was awarded an additional $29,060,460 in Recovery Act funds for the
State of Florida’s CSBG program.

Broward County Community Action Agency

The Broward County Community Action Agency (the Agency) provides assistance to low-
income residents of Broward County, Florida, through the federally funded CSBG,
CSBG/Recovery Act, and Low Income Home Energy Assistance Programs. During fiscal year
2009, FLDCA awarded the Agency $1,222,517 in CSBG grant funds and a Recovery Act grant
award totaling $2,006,347. For fiscal year 2009, Broward County, as a whole, received total
Federal grant awards of $84,251,000.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the terms
and conditions of the award. Grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and



                                                1
complete reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized purposes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited-scope review was to assess the Agency’s financial viability,
capacity to manage and account for Federal funds, and capability to operate the CSBG program
in accordance with Federal regulations.

Scope

We conducted our audit for the limited purpose described in the objective; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on the Agency’s overall system of internal accounting controls. We performed limited
tests and other auditing procedures on the Agency’s financial management system to assess its
ability to administer federally funded projects.

We performed our fieldwork at the Agency’s offices in Ft. Lauderdale and Coral Springs, Florida
during June 2010.

Methodology

To accomplish our objectives, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed the Agency’s fiscal procedures related to accounting documentation and
        preparation of financial reports;

   •    reviewed grant award documentation to determine the Agency’s Federal funding;

   •    reviewed the Agency’s audited financial statements for its fiscal years 2007, 2008, and
        2009;

   •    reviewed the Agency’s Financial Status Report, dated July 1, 2010, which reflects
        cumulative financial activities as of June 2010;

   •    performed liquidity and stability analyses of the Agency’s financial records;

   •    interviewed the Agency management and case workers;

   •    reviewed a sample of case files to assess determinations of participant eligibility;

   •    observed a demonstration on the use of software used to track certain program goals; and

                                                  2
       •   reviewed supporting documentation for data reported on quarterly progress reports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                  FINDINGS AND RECOMMENDATION

Based on our assessment, the Agency was financially viable. In addition, the Agency had the
capacity to manage and account for Federal funds and the capability to operate the CSBG
programs in accordance with Federal regulations. However, the Agency had weaknesses with its
time and effort certification and labor distribution systems. Also, the Agency had problems fully
expending the CSBG/Recovery Act funds.

TIME AND EFFORT CERTIFICATION AND LABOR DISTRIBUTION WEAKNESSES

The Office of Management and Budget (OMB) Circular A-87 requires that employees who work
on a single Federal award certify that their salaries and wages are solely for the program charged.
Such certifications must be performed on at least a semi-annual basis and must be signed by the
employee or a supervisor with first-hand knowledge of the employee’s work. Employees who
work on multiple activities must support the distribution of their salaries or wages by personnel
activity reports or equivalent documentation. 1 Personnel activity reports or equivalent
documentation must reflect an after-the-fact distribution of the employee’s total activity, must be
prepared at least monthly (coinciding with at least one pay period), and must be signed by the
employee.

However, the Agency did not require its employees who worked on Federal awards, including
the CSBG/Recovery Act program, to submit after-the-fact certifications of their efforts. The
Agency employees who worked on only one activity did not certify their effort. Similarly,
employees who worked on more than one activity did not reflect their activity on monthly after-
the-fact activity reports (or equivalent documentation). The Agency employees reflected some
of their project activities within the calendar feature of Microsoft Outlook software; however,
this was an informal procedure and the documentation maintained did not meet the standards of
OMB Circular A-87.

As a result, salaries and wages charged to the contract may not have reflected actual effort of
Agency employees. Administrative expenses, which include salaries and wages, reported on the
latest financial status report represented 7.7 percent ($79,087) of total contract expenditures
($1,021,076).




1
    A statistical sampling system or other substitute system may be used if approved by the cognizant Federal agency.

                                                           3
Management officials agreed to implement new policies and procedures requiring employees to
support their work activities.

INABILITY TO FULLY EXPEND FUNDS

At the time of our fieldwork, the Agency had expended just over $1.02 million, or 51 percent, of
the awarded funds. Current projections reflected in Agency financial reports showed that
approximately 63 percent of the $2 million awarded would be expended by the contract end date
(September 30, 2010).

Agency management officials and a State program official stated that delays in the execution of
the contract made it difficult to expend all of the funds in the given period. The executed
contract period was July 1, 2009, through September 30, 2010; however, the Agency was
restricted by its policies and procedures from incurring expenditures prior to the contract
execution date of September 25, 2009, when the State signed the contract.

Following contract execution, the Agency stated that it incurred additional delays while it trained
case workers responsible for administering the program services. According to the Agency, new
progress reporting requirements increased the training demands for these individuals.

The Agency’s Executive Director said that he was in the process of hiring up to three more
individuals to help administer the program; however, even with the additional staff, the Agency
would still not be able to ensure funds would be fully expended. The Agency’s shortage of
office space would not support the hiring of any additional staff (above the three anticipated).

As a result of the Agency’s inability to fully expend program funds, the Agency could not ensure
all enrolled participants received benefits and could not successfully meet all program goals. 2

At the time of our fieldwork, the Agency had 191 applicants on a waiting list for services.
Additionally, the Agency’s latest quarterly status report, dated April 2010, showed that some
National Performance Indicators were well below expectations. For example, the Agency
estimated that it would help 80 participants achieve employment; however, only 19 had done so.
Similarly, the Agency estimated that it would help 20 participants obtain an increase in
employment income and/or benefits; however, only 2 had done so.

RECOMMENDATION

In determining whether the Agency is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in



2
  Another factor that affected achievement of program goals, as cited by the Agency, was the number of jobs
available for participant placement was lower than anticipated due to the slower than expected economic turnaround
in Broward County.



                                                        4
assessing the Agency’s ability to operate a CSBG program in accordance with Federal
regulations.

AGENCY COMMENTS

In written comments on our draft report, the Agency described actions it had taken in response to
our finding on time and effort certification and labor distribution weaknesses. Additionally, the
Agency indicated that all funds allocated to it under the CSBG ARRA program had been fully
expended by the close of the grant period. The Agency also stated that preliminary results
showed 68 individuals obtained employment and 21 individuals obtained an increase in
employment and/or benefits under the program.

The complete text of the Agency’s comments is included as the Appendix.




                                                5
APPENDIX
                                           APPENDIX: AGENCY COMMENTS



 8Df t A
   FLORIOA

 Human Services OepMmam
 FAMILY SUCCESS ADM INISTRATION DIVISION
  '15 S . And<ews A""""". Room 31 1 • FOI1 Laude rdale , FIoOOa 33301 • 954 ..:357-6367' FAX 954 -468-3579
                                                                                                                              Via HHS Portal Transmi ttal 

October 11, 2010 


Peter J . Barbera
Regional Inspector General for Audit Services
Office of Audit Services, Region IV
61 Forsythe Street. SW Suite 3T 41
Atlanta GA 30303

RE: Report Number A·04·tO·QI082

Dear Mr. Barbera:
The following is the response of Ihe Sroward County Family Success Administration Division to the findings
outlined in Ihe aforementioned report by the U.s. Deparlment of Heal1h and Human Services, Office ollhe
Inspector General entitled Resufls of Limited Scope Review of 8roward County Communify Action Agency.

Finding 1 : Time and Effort Certification and Labor Distribution Weakness

Re sponse: While Broward county does require that all time and attendance be documented and signed on a
bi-weekly basis for regular employees and weekly for temporary staff with a signed review by the employee's
supervisor, the capacity to clearly delineate the effort assigned to each grant is not noted. In response to this
finding and in an effort to e!tectively comply with the requirements the time and attendance sheets have been
color coded per program with the program identified on the time sheet thaI is signed by bolh the statt person
and the supervisor. The after the fact review by the employee and supel'Visor will be completed for each bi
weekly pay period . In addition the FSAD Weekly Service Activity Logs will refl ect on a daily basis the service
activities and services that are delivered for each program.

Finding 2; Inability to Fully Expend Funds

Respon se: All funds allocated to Broward County for Ihe CSBR ARRA program were fully expended by the
close of the grant period. Although th e CSBG ARRA March report on the National Performance Indicators was
below expectations and there were 191 persons that were noted as being on the waiting list. by the end of the
grant 140 of these individuals were provided service with Ihe hiring of more Case Managers. In addition. the
CSBG ARRA Work Plan was amended and contained an e xpectation that 65 individuals would obtain
employment. Based on a preliminary review of the grant files. it appears that 68 individuals obtained
employment and 21 obtained an increase in employmenl and/or benefits.

Thank you for the opportunity 10 review Ihe draft report and to respond to the findings as outlined. It may also
be important to note that the Florida Department of Community Atfairs did in fact complete a review of the
grants files and expenditures of the Community Action Agency grants in August, 2010.

Sincerely

, p~~ ~                            uJ.-»z
Patricia G . West 

Division Director 



                                                         Browa,d County BoIIrd 01 County Commissioners 

              Suo   G"",bur ~ - K, ...... D.   J _ - JlIbuo1 C. _  . K"" K....,;nI • """" ~""'" _ SlaCy A",. , • JoI>n E. A<><IsIt<>m. Jr. • ~ oio   w...., 

                                                                            'MIIW.btow8!d·0I0
